UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




          Non-Standard Work Hours
               Compensation


                     OIG-AMR-47-05-04




                                        August 2005
INSPECTOR GENERAL




                 NATIONAL LABOR RELATIONS BOARD

                       WASHINGTON, DC 20570

August 9, 2005

I hereby submit a review of Non-Standard Work Hours Compensation, Report
No. OIG-AMR-47-05-04. This audit was conducted to assess whether
management controls provide adequate assurances that overtime,
compensatory time, and credit hours are properly authorized and approved and
records are complete and accurate. This audit is particularly timely because
the Federal Workforce Flexibility Act of 2004 established a new form of
compensatory time off for employee time spent in travel away from their official
duty station that could significantly impact the National Labor Relations Board
(NLRB or Agency). The potential increase in compensatory time makes strong
controls even more important.

Controls over the earning and using of non-standard work hours were not
sufficient and related records in the Agency's payroll system were not complete
and accurate. Authorizations to work compensatory time were generally not
documented, and only one office designed forms to approve and document non-
standard work hours that captured all pertinent data.

Each office reviewed had employees that used annual leave before liquidating
compensatory leave, even though the Agency policy is that, normally, the
compensatory leave should be used first. Two employees in our sample that
retired in 2004 were paid a combined total of $2,900 for compensatory leave.
The Agency could have avoided these payouts by enforcing its prompt
compensatory leave liquidation policy.

One Region allowed two employees to earn and use credit hours without
implementing sufficient controls, and one of these employees exceeded limits
identified in the union agreement. Three employees that retired at the end of
2004 were permitted to carry credit hours for an extended period which
resulted in them being paid $3,000. Had the employees been required to
liquidate the credit hours, the Agency could have avoided these payouts.

The OIG conducted two inspections and one audit in Fiscal Year 2000 that
identified multiple deficiencies in the process to approve and record
compensatory time. Even though corrective actions were implemented, some of
the same deficiencies were found in this review. These errors included
instances in which standard operating procedures in the offices were contrary
to Agency guidance even when the guidance had been re-emphasized in a
reminder issued by the Human Resources Branch.

The recurring problems identified in this review were the result of timekeepers,
managers, and office directors not properly performing assigned functions in
accordance with Agency policy. We believe that these employees should be
held accountable for their performance in areas related to time and attendance
administration. The respective supervisors should consider the deficiencies
identified in this report when preparing the next performance appraisals for
these employees.

This audit contains seven recommendations made to the Human Resources
Director that are mostly repeats or versions of prior recommendations.
Generally, we recommended reminding offices of existing policies, revising
Agency policy to require that overtime be authorized in advance and approved
in writing, requiring credit hours be used promptly, and conducting regular
reviews.

An exit conference was held on June 27, 2005, with representatives of the
Human Resources Branch and the Division of Operations-Management. A
draft report was sent to the Human Resources Director on July 1, 2005 for
review and comment. The Human Resources Director's response to the draft
report had no comments with respect to the findings, agreed with the
recommendations, and indicated planned corrective actions. The response,
dated August 2, 2005, is included as a n appendix to this report.




                                     Inspector General
                                       TABLE OF CONTENTS




BACKGROUND ......................................................................................1
WORKFORCE FLEXIBILITY ACT ............................................................2
OBJECTIVES, SCOPE, AND METHODOLOGY ........................................3
FINDINGS ..............................................................................................4
COMPENSATORY TIME..........................................................................4
  Authorization and Approval .................................................................4
  Recording in FPPS ...............................................................................6
  Recording in the Proper Pay Period ......................................................7
  Leave Balances....................................................................................8
CREDIT HOURS.....................................................................................9
DOCUMENTATION...............................................................................10
ACCOUNTABILITY ...............................................................................10
RECOMMENDATIONS..........................................................................12
ATTACHMENT 1 – Compensatory Leave Balances.................................13
ATTACHMENT 2 – Credit Hour Balances ..............................................14
APPENDIX

           Memorandum from the Director of Human Resources,
           Comments on Draft Report – "Audit of Non-Standard Work
           Hours Compensation," dated August 2, 2005
                                BACKGROUND

The National Labor Relations Board (NLRB or Agency) administers the principal
labor relations law of the United States, the National Labor Relations Act
(NLRA) of 1935, as amended. The NLRA is generally applied to all enterprises
engaged in interstate commerce, including the United States Postal Service, but
excluding other governmental entities as well as the railroad and the airline
industries. The Fiscal Year (FY) 2005 appropriation authorizes 1,865 full-time
equivalents that are located at Headquarters, 51 field offices throughout the
country, and 3 satellite offices for Administrative Law Judges. NLRB received
an appropriation of $251,875,000 for FY 2005, less an across-the-board
reduction of .8 percent, leaving a net spending ceiling of $249,860,000.

Approximately 1,649 of the Agency's 1,913 full and part-time employees (86
percent) worked under the general supervision of the General Counsel as of
December 25, 2004. For purposes of this audit report, overtime, whether paid
or compensatory time, and credit hours were considered non-standard work
hours. NLRB employees worked more than 21,000 non-standard work hours
during the period January 11, 2004 to December 25, 2004, approximately 98%
of which were worked by General Counsel employees. Between January 11,
2004, and December 25, 2004, General Counsel employees were paid for 304
hours of overtime, earned 20,290 hours of compensatory leave, used 19,500
hours of compensatory leave, and had a balance of 7,447 compensatory hours
and 734 credit hours as of December 25, 2004.

The Division of Administration (Administration) is responsible for establishing
Agency policies for employee time and attendance (T&A), including overtime.
Within the Division, the Human Resources Director establishes administrative
procedures to assure that Agency policy is properly implemented. Overtime
hours consist of work officially ordered or approved and performed in excess of
8 hours in a day, 40 hours in an administrative workweek, or 80 hours in a
two-week pay period for employees on alternative work schedules. In lieu of
pay, employees may be granted compensatory time off from their tour of duty
or may be approved to work credit hours. Office of Personnel Management
(OPM) guidance defines credit hours as hours that an employee elects to work,
with supervisory approval, in excess of the employee’s basic work requirement.
An employee may use credit hours during a subsequent day, week, or pay
period, with supervisory approval.

The NLRB uses the Department of Interior National Business Center's Federal
Personnel Payroll System (FPPS) to process the Agency's payroll. NLRB
timekeepers input employee T&A information into FPPS. The employee's
supervisor is responsible for certifying the data as correct before submission to
FPPS for processing on a biweekly basis. The certified T&A information is the
basis for employee pay and is the Agency's official payroll record.



                                        1
                       WORKFORCE FLEXIBILITY ACT

Our review of Non-Standard Work Hours Compensation is particularly timely
because the Federal Workforce Flexibility Act of 2004 was enacted. This Act
established a new form of compensatory time off for employee time spent in
travel away from their official duty station when such time is not otherwise
compensable. This law could significantly affect the NLRB because Agency
employees perform duties requiring travel to locations away from their official
duty station during hours outside their regularly scheduled workweek.

Interim regulations to implement this new form of compensatory time were
published on January 27, 2005, and became effective on January 28, 2005.
These interim regulations identify how to determine the amount of time to be
credited to the employee, establish agencies' responsibility to credit employees
for creditable time in travel status, and require agencies to track and manage
compensatory time off granted for travel separately from other forms of
compensatory time off. The interim regulation also assigns employees the
responsibility to comply with agency procedures for requesting credit for
compensatory time.

The Director of Human Resources issued a memorandum on January 27,
2005, providing implementing guidance on this new program. The
memorandum provided background on the new benefit and identified required
actions which included advance coordination of this compensatory time
between the supervisor and employee. The memorandum also instructed
timekeepers to manually track compensatory time earned for travel until the
time and attendance system could be modified to accept the data.

The Agency issued Administrative Policy Circular 05-02, Compensatory Time
Off for Travel, on March 17, 2005. The circular was consistent with the OPM
interim regulations. On March 18, 2005, the Human Resources Branch (HRB)
e-mailed timekeepers the new pay codes for recording compensatory time for
travel and instructed them to enter travel compensatory time into FPPS. As of
April 30, 2005, 775 hours of travel compensatory time for General Counsel
employees was entered into FPPS.




                                        2
                OBJECTIVES, SCOPE, AND METHODOLOGY

This audit was conducted to assess whether management controls provide
adequate assurances that overtime, compensatory time, and credit hours are
properly authorized and approved and records are complete and accurate.

We reviewed applicable laws and regulations including Title 5 of the United
States Code and Title 5 Code of Federal Regulations. We also reviewed the
OPM Handbook on Alternative Work Schedules and General Accounting Office
guidance titled Maintaining Effective Control over Employee Time and
Attendance Reporting (GAO Guidance), dated January 2003.

We reviewed Agency guidance in the NLRB Administrative Policies and
Procedures Manual (APPM) Chapter PER-10, Leave and Attendance, dated
December 21, 1998. We also reviewed NLRB Administrative Bulletin 04-11,
Compensatory Time Off for Religious Observance, dated February 19, 2004,
and provisions in union agreements.

We obtained FPPS T&A data, reviewed the information for completeness and
accuracy, and selected offices for review. We obtained more detailed
information for October 5, 2003 through January 8, 2005 for the offices
selected for testing. Due to FPPS reporting constraints, summary data in this
report is for the period of January 11, 2004, through December 25, 2004. We
were also provided read-only access to FPPS to evaluate possible trends or the
extent of a condition.

In each office visited we interviewed Agency officials to identify procedures for
monitoring T&A and for approving and recording non-standard work hours.
We judgmentally selected 10 employees in each Regional Office (Region) visited
and 15 employees in Administration. We reviewed four pay periods for each
employee selected. Items tested included employee tour of duty schedules, sign
in and out timekeeping logs, biweekly T&A reports, and authorization and
approval of non-standard hours. We determined whether limits for non-
standard work hours were exceeded and whether employees used non-
standard work hour balances before using annual leave.

This audit was performed in accordance with generally accepted government
auditing standards during the period of January through May 2005. We
conducted this audit at NLRB Headquarters and Regions as follows: Region 4 –
Philadelphia; Region 6 – Pittsburgh; Region 21 - Los Angeles; and Region 31 -
Los Angeles. Headquarters offices tested were the Library and Administrative
Services Branch (LASB), Procurement and Facilities Branch (PFB), HRB, and
Budget Branch.




                                       3
                                   FINDINGS

Virtually all overtime worked by Agency employees is compensated by an equal
amount of time off from the employee's scheduled tour of duty. We identified
deficiencies concerning the approval and recording of compensatory time.
Minimal overtime is paid to employees and we made no conclusions regarding
controls over those payments.

One Region allowed employees to earn and use credit hours, but did not
implement sufficient controls, and an employee in that Region exceeded limits
in the union agreement. Three Headquarters employees were permitted to
carry credit hours for an extended period. The Agency paid five employees in
our sample $5,900 for unliquidated compensatory time and credit hours upon
retirement. The Agency could have avoided these payouts by enforcing its
prompt compensatory leave liquidation policy.


COMPENSATORY TIME

We identified weaknesses in the Agency's controls over compensatory time.
Authorizations to work compensatory time were generally not documented.
Approval documentation was inadequate in some cases and content varied
significantly between offices. Only one Region designed forms to approve and
document non-standard work hours that captured all pertinent data. Three of
the four Regions reviewed did not record some or all compensatory time in the
FPPS. Both Regions that recorded compensatory time in the FPPS recorded
time in improper pay periods. Each office reviewed had employees that used
annual leave before liquidating compensatory leave, in contravention with
Agency policy.

Inaccurate records can result in incorrect employee payments and affect the
usefulness of FPPS data for managing Agency operations and external
reporting. In particular, inaccurate data could result in incorrect calculation of
compensatory leave liquidating payments.

Authorization and Approval

The Federal Employees Pay Act (FEPA) generally mandates overtime
compensation for employees in Grade 15 or below for "hours of work officially
ordered or approved in excess of 40 hours in an administrative workweek."
Section 550.111(c) of title 5, Code of Federal Regulations, requires that such
overtime be "ordered or approved . . . in writing by an officer or employee to
whom this authority has been specifically delegated." The phrase "ordered or
approved" has been construed by the Federal Circuit to require written
authorization. The writing requirement serves an important purpose of the
statute, to control the government's liability for overtime.


                                        4
GAO Guidance states that controls over T&A information should provide
reasonable assurance that T&A information reflects actual work performed and
is sufficiently detailed to allow for verification. GAO Guidance also states that
supervisory authorization and approval is a key part of ensuring the propriety
of T&A information. The supervisor or other authorized official should review
and authorize employee’s planned work schedules and applications for leave,
and review and approve employee submissions of actual time worked and leave
taken. Further, approval should be obtained for overtime before the work has
been performed when feasible and, when not feasible, as soon as possible after
the work has been performed.

The APPM does not provide guidance on the minimum documentation to
support approval or include an example approval form. Details that we believe
are necessary include the case or project identifier, a description of the work,
the time of day worked, whether compensatory time or overtime was requested,
and the signatures of the claimant and the approving official.

Generally, Regional employees when working in the office and Administration
employees reportedly receive oral authorizations in advance to work
compensatory time, followed by written approval of the hours worked. Regional
employees operating in the field work the hours needed to accomplish the
assignment and submit a request for compensatory time approval afterwards.

We found that professional employees in Regions 4 and 31 submitted
compensatory time reports to their supervisors including hours worked and the
time taken off, but the reports did not show approval. The Region 4 timekeeper
stated that approval to take the time off on a standard request for leave form
constituted approval of earning the hours. Region 31 did not require a leave
form. The Federal Circuit found that records recording hours worked were not
sufficient to meet FEPA's writing requirement because the records did not
provide documentation of prior written authorization or approval of such work.
Compensatory hours worked by support staff in these offices was approved by
a memo or note on a compensatory time card.

Documentation of approval varied significantly between sampled offices. Each
office determined what information it deemed necessary. Region 6 was the
only office that designed forms to approve and document non-standard work
hours that captured all pertinent data. Each Region used an office-designed
form or a memo that provided some data. LASB used Form NLRB 4611, a
manual spreadsheet, PFB used e-mails, and HRB used e-mails and
handwritten notes. The Budget Branch did not have any compensatory time.




                                        5
       Non-standard Work Hours Approval Documentation by Office

                                  Region                       Branch
 Data Collected           4       6      21      31     HRB    LASB      PFB
 Case or project         Yes     Yes    Yes      Yes     No      No       No
 Work description        Yes     Yes     No      No      No      No       No
 Time of day             No      Yes    Yes      No      No     Yes      Yes
 Compensatory time
 or overtime specified   No      Yes       Yes   Yes     No      No      No
 Claimant signature      No      Yes       No    No      No      No      Yes
 Approving official
 signature               No      Yes       Yes    No     Yes     Yes     Yes

PFB said that all overtime is approved in advance via email, but acknowledged
that separate correspondence may not be attached to the T&A files.

The Human Resources Director acknowledged that HRB could not locate the e-
mails requesting and approving the overtime for the items in our sample. She
asserted, however, that she approved all requests in advance. The Human
Resources Director said that the policy for approving overtime includes clearing
it with the Director of Administration. The Human Resources Director also
said that she approves all compensatory time in advance, unless she
specifically delegates this responsibility to a supervisor. She said that all
compensatory time and overtime approvals cite the employee, project, and
amount of compensatory time approved.

Recording in FPPS

Federal regulations require that agencies keep complete and accurate records
of all compensable hours worked by its employees. GAO Guidance states that
controls over T&A information should provide reasonable assurance that
information is recorded completely, accurately, and as promptly as practicable,
and reflects actual work performed and leave taken. Agency employees were
informed in a June 19, 2000, memorandum from the Director of Personnel that
all hours worked and time taken off must be accounted for in the payroll
system.

Three of the four Regions reviewed did not record some or all compensatory
time in FPPS. One of these three Regions recently began recording these hours
in FPPS, but did not enter prior accumulated balances. One Region and the
four Administration offices tested recorded compensatory time in FPPS.

Region 4 did not record compensatory time earned or used in FPPS and a
uniform method of authorizing and documenting overtime hours worked was
not used. Methods included an office-designed Compensatory Leave Report


                                       6
form, e-mails, notes on paper, index cards, day planners, and desk blotter
calendars. The timekeeper only maintained information related to employees
that she managed. The Regional Director said the office had not been
instructed that compensatory time had to be recorded in FPPS.

Region 6 recorded compensatory time earned during an employee's normal
work week in FPPS, but not time worked on a compressed schedule day off.
The unrecorded time was tracked by the timekeeper on T&A summary
worksheets maintained for each employee. The Office Manager stated that
FPPS did not allow data for compressed days worked to be entered. HRB
confirmed that these hours could be entered into FPPS using the same code as
any other compensatory time.

Region 31 began recording compensatory time in FPPS in February 2005.
Previously, records of time earned and used were kept by each employee and
supervisor in various manners. When Region 31 began using FPPS,
unrecorded hours from the informal system were not entered into the system.
Employees were advised by the Regional Director to use these hours before
using hours accumulated in FPPS. The Regional Director said that the Region
began using FPPS because the volume of compensatory time earned was
expected to dramatically increase due to a new law providing employees
compensatory time for travel.

Region 4 documentation showed a balance of 73 hours of unrecorded
compensatory time for the employees reviewed. Region 31 documentation
showed 61 hours unrecorded. Region 6 documentation showed 45 hours had
been earned and 81 hours used during the periods reviewed. None of these
hours earned or used in these three Regional Offices were recorded in the
FPPS. As a result, Agency controls over the total hours accumulated or carried
from one quarter to the next were inoperative, FPPS lacks accurate information
to support external reporting, and employees might not be properly paid for
compensatory time should they leave the Agency.

Recording in the Proper Pay Period

GAO Guidance states that Agency controls should provide for proper recording
of T&A. GAO Guidance defines proper recording as complete, accurate, valid,
and in compliance with legal requirements. GAO Guidance also states that
adjustments or corrections required because of changes after T&A information
was approved should be processed promptly and be traceable to the pay period
for which the correction applies.

Both Regions that used FPPS to record compensatory time, Region 6 and
Region 21, recorded hours earned in improper pay periods. Administration
offices reviewed recorded compensatory time in the correct pay periods.



                                      7
          Compensatory Time Recorded in Incorrect Pay Periods

                          Date Worked                  Recorded
Office        Hours   Pay Period    Date        Pay Period      Date
Region   6      6       0322     10/15/03         0323       10/20/03
Region   6      3       0407      3/18/04         0408        3/22/04
Region   21     3       0416      7/16/04         0417        7/25/04
Region   21     2       0417       8/6/04         0418         8/8/04
Region   21     7       0417       8/7/04         0418         8/8/04
Region   21     9       0426      12/6/04         0502       12/26/04

The compensatory hours were recorded in later pay periods because
timekeepers did not prepare and process T&A correction forms. T&A certifying
officials either did not notice or require correction of the hours recorded.

Leave Balances

The APPM states that, normally, compensatory time shall be used before
applying annual leave balances to a particular period of leave. Employees
covered by the Fair Labor Standards Act and union agreements require that
certain employees be paid for unused compensatory time under certain
conditions. Payment in some cases must be at the employee’s overtime rate.

Each office reviewed had employees that used annual leave before liquidating
compensatory leave, even though the Agency policy is that, normally, the
compensatory leave should be used first. Thirty of the 55 employees in our
sample carried compensatory time balances and none of them liquidated these
balances before using annual leave. Of the 30 employees that did not liquidate
compensatory time before using annual leave, some carried balances for
extended periods -- 15 carried balances for 1 to 2 years and 7 carried balances
for more than 2 years.

Compensatory time balances were not promptly liquidated because managers
and supervisors were not aware of the requirement, did not monitor balances,
or did not apply the policy. A contributing factor may have been that
timekeepers generally provided managers and supervisors with printed FPPS
employee attendance information each pay period that did not include
compensatory leave information.

Promptly liquidating balances is necessary to avoid unnecessary payments to
employees for their compensatory time balances, avoiding employee forfeiture
of leave, and may be a factor in how the Agency will implement a proposed
OPM regulation. OPM proposed a regulation on January 5, 2005, to limit use
of compensatory time earned to 26 pay periods. Exceeding the limit would
result in forfeiture or Agency payment.



                                       8
Two employees in our sample that retired in 2004 were paid a combined total
of $2,900 for compensatory leave. The pace of Agency retirements could
increase over the next several years. This, together with OPM’s use period
limitation, could increase leave payments. The Agency could have avoided
payouts of $2,900 by enforcing its prompt leave liquidation policy. As shown in
Attachment 1, General Counsel employees had a total 7,447 hours of
compensatory leave available as of December 25, 2004.

In response to our preliminary findings, HRB provided additional guidance on
the use of compensatory leave credits. HRB issues a periodical titled
Management Writes, which includes articles advising NLRB managers and
supervisors about current Federal labor and employee relations issues. The
April 2005 edition included an article titled Watch Those Comp Time Balances!
The article quotes the APPM which states that, normally, compensatory leave
credits shall be used before applying annual leave balances to a particular
period of leave and that managers should monitor employees' compensatory
leave balances carefully.


CREDIT HOURS

OPM's guidance defines credit hours as hours that an employee elects to work,
with supervisory approval, in excess of the employee’s basic work requirement.
An employee may use credit hours during a subsequent day, week, or pay
period, with supervisory approval. Employees are entitled to payment for credit
hours if they transfer to another agency or retire. Agency policies or union
agreements may place restrictions on earning or using credit hours.

GAO Guidance states that when agency work schedule programs allow for
credit hours to be earned, employee requests to work such hours should be
reviewed by the supervisor to determine if work demands warrant the employee
working the additional hours and, if so, approved before the work has been
performed when feasible. The agreement between the General Counsel and the
NLRB Union covering field office professional employees further provides that
an employee working full-time may earn up to 2 ½ credit hours per day, and
the hours must be used by the end of the pay period following the pay period in
which they were earned.

Region 21 began allowing employees to earn credit hours during the pay period
ending October 2, 2004, and had two employees participating in the program.
The approval of hours earned and used was not documented. Employees
maintained a log identifying the amount of time earned and used each day and
provided this to the timekeeper at the end of each pay period. One employee
was allowed to earn 3 ½ credit hours in a day and carry the hours earned
beyond the next pay period. This employee carried excess credit hours for 6
pay periods.


                                      9
The Assistant to the Regional Director for Region 21 stated that use of a flexible
work schedule by two employees was new to the office and the conditions noted
would be corrected.

Agency policy does not impose a restriction that credit hours earned by all
employees must be used by the pay period following the period in which they
are earned. The implementation of this practice Agency-wide would be prudent
and could reduce payments made to departing employees with credit hour
balances. For example, three HRB employees carried credit hours balances for
1 to 3 years. The Agency was required to pay these employees more than
$3,000 in November 2004 and January 2005 for 51 credit hours upon
retirement. Had the employees been required to liquidate the credit hours, the
Agency could have avoided these payouts. As shown in Attachment 2, General
Counsel employees had a balance of 734 credit hours as of December 25, 2004.


DOCUMENTATION

GAO Standards for Internal Control in the Federal Government states that
internal control and all transaction and other significant events need to be
clearly documented, and the documentation should be readily available for
examination. Offices reviewed had controls over timekeeping that included the
use of employee sign-in and sign-out timesheets to document attendance.

Two offices reviewed were unable to provide requested employee timesheets
evidencing that employees worked compressed schedules for selected pay
periods. The Region 21 timekeeper was unable to locate office timesheets for
some dates in three pay periods and identified timesheets for six later dates
that were missing. The LASB timekeeper was unable to provide timesheets for
one employee for four pay periods. The timesheets were located more than 1
month later. LASB said that the timesheets were locked in the supervisor's
office and were not retrieved until the supervisor returned from an
unanticipated extended absence.

The Region 21 timekeeper said that the timesheets were circulated to the office
supervisors daily for informational purposes and that some had not been
returned to her. Her inquiry of the supervisors did not result in the timesheets
being located. The LASB timekeeper and Section supervisor were unable to
locate the requested documents until the employee that maintains storage of
the records returned from extended leave.


ACCOUNTABILITY

Regional Directors or their supervisory staff certified all T&A data entered in
the FPPS as correct even though the data was incomplete and inaccurate.


                                        10
Agency managers and other employees with T&A responsibilities gave excuses
that FPPS would not accept certain data or that they were not told to enter
certain payroll data. In our opinion, these excuses are not acceptable.
Considerable resources have been spent auditing payroll, instructing
managers, and training T&A clerks. Noncompliance with the most basic of
principles, to enter all payroll data in the payroll system, should no longer be
tolerated.

The Office of Inspector General (OIG) conducted two inspections and one audit
in FY 2000 with findings or recommendations that relate to deficiencies
identified in this review. Even though corrective actions were implemented,
some of the same deficiencies were found in this review. These were not
exclusively errors in processing items, but included instances in which
standard operating procedures in the offices were contrary to issued guidance
which had been re-emphasized in a reminder issued by HRB.

Deficiencies were previously identified at two other Regions by OIG Inspections.
Inspection Report OIG-INS-08-00-05, dated July 6, 2000, identified that Region
19 did not properly approve compensatory time or record compensatory time
into the Agency's payroll system. Inspection Report OIG-INS-09-00-06, dated
July 6, 2000, identified that Region 13 allowed informal compensatory time,
that was not properly approved or recorded into the Agency's payroll system.

The OIG issued Report OIG-AMR-29-00-01, Evaluation of Time and Attendance
Practices, on February 29, 2000. This audit reviewed the timekeeping
practices for each of the five Board Members' offices, Office of Executive
Secretary, Office of Solicitor, Office of Representation Appeals, and Division of
Information. In this report, we recommended that the Personnel Director
remind all supervisors and timekeepers that compensatory time and credit
hours must be recorded in the payroll system. We also recommended that the
Personnel Director develop a plan for conducting regular reviews as set forth in
Agency policy.

Actions needed to satisfy recommendations made in that report were completed
on March 28, 2001. The Director of Personnel issued a memorandum to all
Agency employees on June 19, 2000, regarding Agency policies, procedures,
and practices related to T&A reporting. The memo included a statement that
all hours worked and time taken off must be accounted for in the payroll
system and also stated that periodic on-site reviews of T&A would be
performed. Also, an April 23, 2003, e-mail from the Division of Operations-
Management Associate General Counsel provided instructions regarding the
use of FPPS to manage compensatory time balances.

The Human Resources Director stated reviews of one Region and one
Headquarters office were conducted in 2001, but that further reviews were not
conducted due to budget constraints. Budget constraints do not eliminate the


                                       11
responsibility of the Director to perform evaluations, possibly in some
alternative manner.


                             RECOMMENDATIONS

The recurring problems identified in this review were the result of timekeepers,
managers, and office directors not properly performing assigned functions in
accordance with Agency policy. We believe that these employees should be
held accountable for their performance in areas related to T&A administration.
The respective supervisors should consider the deficiencies identified in this
report when preparing the next performance appraisal for these employees.

We recommend that the Human Resources Director:

   1. Work with the Director of Administration to revise the APPM to require
      that overtime be authorized in advance, if feasible, and approved in
      writing. The policy should also establish minimum information to be
      included in approval documentation.

   2. Remind all NLRB offices that all non-standard work hours must be
      recorded in FPPS.

   3. Remind all offices that correction actions are required when recording
      overtime after the close of the pay period to ensure that Agency payroll
      records are accurate.

   4. Remind all NLRB offices that compensatory leave should normally be
      used before annual leave.

   5. Coordinate with the Director of Administration to revise the APPM to
      require limiting the time that credit hour balances can be carried.

   6. Remind all offices that sign in/out timesheets are payroll records
      requiring control and retention in accordance with Federal standards.

   7. Develop a plan for HRB to conduct regular T&A reviews.




                                       12
                                             ATTACHMENT 1

               Compensatory Leave Balances
                   December 25, 2004

                      Office                 Hours
Division of Administration                    166
Division of Advice                             56
Division of Enforcement Litigation            171
Division of Operations-Management              26
Office of Equal Employment Opportunity          5
Office of Employee Development                  2
Region 01 - Boston                            391
Region 02 - New York                          150
Region 03 - Buffalo                           196
Region 04 - Philadelphia                        0
Region 05 - Baltimore                         335
Region 06 - Pittsburgh                        119
Region 07 - Detroit                            29
Region 08 - Cleveland                         254
Region 09 - Cincinnati                        270
Region 10 - Atlanta                           105
Region 11 - Winston Salem                     220
Region 12 - Tampa                             483
Region 13 - Chicago                           337
Region 14 – St. Louis                         231
Region 15 - New Orleans                       194
Region 16 – Ft. Worth                         267
Region 17 - Kansas                            185
Region 18 - Minneapolis                       216
Region 19 - Seattle                           425
Region 20 - San Francisco                     209
Region 21 - Los Angeles                       315
Region 22 - Newark                            463
Region 24 - Puerto Rico                       178
Region 25 - Indianapolis                       60
Region 26 - Memphis                           130
Region 27 - Denver                              0
Region 28 - Phoenix                           351
Region 29 - Brooklyn                          401
Region 30 - Milwaukee                         385
Region 31 - Los Angeles                         0
Region 32 - Oakland                            40
Region 34 - Hartford                           82
                      Total                  7,447

                             13
                                           ATTACHMENT 2

                    Credit Hour Balances
                     December 25, 2004

                      Office               Hours
Division of Administration                   24
Division of Advice                          159
Division of Enforcement Litigation          482
Division of Operations-Management            0
Office of Equal Employment Opportunity        0
Office of Employee Development                0
Region 01 - Boston                            5
Region 02 - New York                         48
Region 03 - Buffalo                           0
Region 04 - Philadelphia                      0
Region 05 - Baltimore                         3
Region 06 - Pittsburgh                        0
Region 07 - Detroit                           0
Region 08 - Cleveland                         0
Region 09 - Cincinnati                        0
Region 10 - Atlanta                           0
Region 11 - Winston Salem                     0
Region 12 - Tampa                             1
Region 13 - Chicago                           0
Region 14 – St. Louis                         0
Region 15 - New Orleans                       0
Region 16 – Ft. Worth                         0
Region 17 - Kansas                           0
Region 18 - Minneapolis                       1
Region 19 - Seattle                           2
Region 20 - San Francisco                     1
Region 21 - Los Angeles                       5
Region 22 - Newark                            0
Region 24 - Puerto Rico                       0
Region 25 - Indianapolis                      0
Region 26 - Memphis                           0
Region 27 - Denver                            0
Region 28 - Phoenix                           0
Region 29 - Brooklyn                          3
Region 30 - Milwaukee                         0
Region 31 - Los Angeles                       0
Region 32 - Oakland                           0
Region 34 - Hartford                          0
                      Total                 734

                             14
APPENDIX
